U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          OFFICE OF THE SECRETARY

          The Office of Administrative Services
             Needs Stronger Internal Controls
                   and Management Oversight



    Final Inspection Report No. IPE-15131/September 2002




                             PUBLIC
                             RELEASE



            Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                                Final Report IPE-15131 

Office of Inspector General                                                                                        September 2002



                                                 TABLE OF CONTENTS 



EXECUTIVE SUMMARY.............................................................................................................. i 


INTRODUCTION............................................................................................................................1 


OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................................1 


BACKGROUND .............................................................................................................................2 


OBSERVATIONS AND CONCLUSIONS.....................................................................................3 


     I.        Bankcard Use Did Not Always Adhere to Policy..........................................................3

     II.       Awards Program Was Not Well Managed.....................................................................6

     III.      Cellular Telephones Were Used For Personal Calls....................................................11

     IV.       Controls Over Time and Attendance Were Lacking....................................................13

     V.        Two Employees Abused Their Travel Card Privileges................................................17

     VI.       Commerce’s Energy and Environmental Programs Need Attention ...........................19

     VII.      OAS Reorganization Options Need Attention.............................................................22

RECOMMENDATIONS ...............................................................................................................23 


APPENDIXES
A: Office of the Secretary Response to the Draft Report..............................................................25 

B: National Institute of Standards and Technology Response to the Draft Report.......................33

U.S. Department of Commerce                                                 Final Report IPE-15131 

Office of Inspector General                                                         September 2002



                                  EXECUTIVE SUMMARY

The Office of Administrative Services (OAS), a component of the Office of the Secretary,
provides administrative support and services to various Commerce units. These services include
mail handling, printing and publications, library services, property and fleet management, and
building management for Department headquarters, the Herbert C. Hoover Building. In addition,
OAS provides policy and oversight in areas such as construction, energy conservation, and
environmental management for the entire Department.

We initiated an inspection of OAS’s internal operations in April 2002 in response to a request
from the Chief Financial Officer and Assistant Secretary for Administration. Shortly before the
start of our inspection, the OAS director was reassigned to another position. During the course
of our review we worked closely with the acting OAS director to focus on select aspects of the
office’s internal management and operations that were of concern. In particular, we sought to
determine whether applicable rules, regulations, and guidelines were followed by OAS managers
and employees with respect to bankcard usage, issuance of awards, cellular telephone usage,
overtime, and other time and attendance issues. Specifically, we found the following:

Bankcard Use Did Not Always Adhere to Policy. OAS is a participant in the federal
government’s bankcard program, a program designed to streamline the purchase of small items
and reduce administrative costs and paperwork. We reviewed the purchases made between
March 2001 and March 2002, for OAS’s 26 bankcard holders to ensure that bankcard usage
complied with applicable regulations and procedures. We found that proper procedures were not
always followed. Specifically, documentation to support purchases was not always retained,
necessary approval of purchases was not obtained on 8 percent of purchases, cardholders failed to
use required sources of supply, and some holiday décor items purchased with bankcards could
not be located (see page 3).

Awards Program Was Not Well Managed. OAS employees have received approximately
$508,476 in departmental awards during fiscal years 1999 through 2001. Yet, we found that
OAS’s awards process was (1) unorganized, (2) had weak internal controls, and (3) had poor
management oversight. The result was several violations of departmental award guidelines,
including exceeding thresholds for awards—six OAS employees received more than $1,000 in
Cash-in-Your-Account (CIYA) awards in calendar year 2001 (the limit is $1,000 annually) and
three employees received awards totaling more than 10 percent of their base pay in fiscal year
2001 (the limit is 10 percent annually). In addition, we found that the Office of Human
Resources Management (OHRM) did not adequately fulfill its role in overseeing and monitoring
the OAS awards program. OHRM also does not have processes in place to detect the threshold
violations or a more serious problem involving 80 CIYA awards for 50 OAS employees that
were not included on the employees’ W-2 forms (earnings statements) and for which the
applicable taxes were not paid (see page 6).

                                                i
U.S. Department of Commerce                                                   Final Report IPE-15131
Office of Inspector General                                                           September 2002


Cellular Telephones Were Used For Personal Calls. In reviewing the cellular telephone bills
for the OAS employees who were provided with a cell phone to assist in conducting official
government business, we found that calls made by some employees appeared to be of a personal
nature. In addition, in some cases, monthly costs for employee use of the telephones were
exorbitant, exceeding $1,000 on two occasions. We requested that five OAS employees with
cellular telephones certify whether their cell phone usage was official government business or
personal. Of the five employees, three provided signed certifications reporting that they made
personal calls with their government cellular telephones. One employee certified that he had not
made any personal calls, and the last employee has yet to comply with our request. We worked
with the acting OAS director to calculate a fair and equitable amount of reimbursement to the
government for the three employees who acknowledged making personal calls (see page 11).

Controls Over Time and Attendance Were Lacking. Because of concerns about the large
amount of overtime charged by three OAS employees, we reviewed their time and attendance
records. Our review revealed numerous problems, including incomplete or missing
authorizations to work overtime, a timekeeper who was inappropriately made a supervisor for an
employee that she was also the timekeeper for, and missing time and attendance documentation.
Finally, despite repeated efforts and various approaches, we were unable to substantiate that all
the overtime in question (1,152 hours among the three employees in 2001) had in fact been
worked (see page 13).

Two Employees Abused Their Travel Card Privileges. During our review it came to our
attention that two OAS employees were abusing their travel cards. We determined that the two
OAS employees were using their government-issued travel cards for personal use and were not
prompt in making payment to Citibank, the contractor that issues the government travel cards.
The travel cards for both employees were cancelled and disciplinary action, in the form of 5-day
suspensions, was taken against the employees (see page 17).

Commerce’s Energy and Environmental Programs Need Attention. The Department’s
Energy Management Program promotes energy conservation by reducing energy and water use,
managing utility costs, and promoting renewable energy technologies. Commerce’s
Environmental Management Program assists the bureaus in ensuring compliance with important
environmental legislation, such as the Clean Air Act and the Clean Water Act. During our
review, we found that both the energy and environmental programs need attention and staffing to
ensure that the Department is in compliance with applicable laws and regulations (see page 19).

OAS Reorganization Options Need Attention. During our review, the acting OAS director
proposed a new organizational structure for the office. While we believed that OAS would
certainly benefit from a reorganization that will make managers more accountable and realign
certain functions, we had some concerns about the proposed reorganization plan. For example,
under the proposed structure, six division directors would be reporting directly to the director and
deputy director, and we were concerned that the OAS leadership may be stretched thin. We
                                                 ii
U.S. Department of Commerce                                                   Final Report IPE-15131
Office of Inspector General                                                           September 2002


thought that this could lead to some of the same problems of inadequate managerial oversight
that caused many of the problems cited in our review. In response to our draft report, the Chief
Financial Officer and Assistant Secretary for Administration said that he did not believe that this
arrangement would overburden the OAS leadership. He indicated that a new division director
would be hired and that a new OAS Deputy Director had been selected to assist the Acting OAS
Director with oversight responsibilities. We were satisfied with this alternative solution and
dropped our recommendation that a new OAS organizational structure be developed (see
page 22).

On page 23, we offer recommendations to address our concerns.



In response to our draft report, the Chief Financial Officer and Assistant Secretary for
Administration agreed with all but one of our recommendations (as discussed above) and has
taken corrective action to address most of the findings and recommendations contained in our
report. In addition, the Director for Administration and Chief Financial Officer, National
Institute of Standards and Technology agreed with the observations and conclusions regarding
the CIYA award issue and stated that NIST will work with OHRM to take appropriate corrective
action to remedy the problem. We have summarized the Office of the Secretary’s and NIST’s
responses at the end of each chapter, including the corrective actions already taken in response to
our recommendations. Copies of the full agency responses to our draft report are included as
Appendixes A and B. We are very pleased with the quick attention and decisive action taken in
response to the matters raised in this report.




                                                iii
U.S. Department of Commerce                                                  Final Report IPE-15131 

Office of Inspector General                                                          September 2002



                                       INTRODUCTION

This report presents the results of our inspection of some of the internal operations of OAS.
Inspections are reviews the OIG undertakes to provide agency managers with timely information
about operations. One of the main goals of an inspection is to encourage effective, economical,
and efficient operations. Inspections are also conducted to identify or prevent fraud, waste, and
abuse in federal programs. By asking questions, identifying problems, and suggesting solutions,
the OIG helps managers determine how best to quickly address issues identified during the
inspection. Inspections may also highlight effective programs or operations, particularly if their
success may be useful or adaptable for agency managers or program operations elsewhere.

Our inspection was conducted between April and June 2002, in accordance with the Quality
Standards for Inspections issued by the President=s Council on Integrity and Efficiency, and was
performed under the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended. At the conclusion of our review,
we discussed our findings with the Chief Financial Officer and Assistant Secretary for
Administration, as well as the Acting OAS Director.

                      OBJECTIVES, SCOPE AND METHODOLOGY

The primary objective of our inspection was to determine whether applicable rules, regulations,
and guidelines were followed by OAS managers and employees with respect to bankcard usage,
issuance of awards, cellular telephone usage, overtime, and other time and attendance issues. We
also reviewed a sample of the office’s procurement actions for fiscal year 2002, and discussed
proposals to reorganize the office with the acting OAS Director and other OAS staff. In addition,
based on information obtained during our inspection, we also performed a cursory review of
travel card usage for select employees.

To meet our objectives, we examined, for purchase cards, pertinent documentation including
billing statements, receipts, and purchase approval forms. For issuance of awards, we looked at
copies of form CD-326, “Recommendation for Recognition”; data runs from the Department’s
Human Resources Data System on awards made to OAS employees; and official personnel
folders so that we could catalogue awards made to specific employees. For cellular telephone
usage we reviewed billing statements; for time and attendance we reviewed all available relevant
records; and for travel card usage we examined statements and relevant attendance records.

In addition, we interviewed managers and employees in OAS, the Office of Human Resources
Management (OHRM), and the Office of Executive Budgeting and Assistance Management. We
also reviewed documentation and interviewed staff in the Office of the Comptroller at the
National Institute of Standards and Technology, a Commerce bureau that processes some
financial transactions for the Office of Secretary and other Commerce bureaus, including the
payment of certain employee awards.
                                                1

U.S. Department of Commerce                                                    Final Report IPE-15131 

Office of Inspector General                                                            September 2002



                                        BACKGROUND

OAS establishes policy and provides oversight in areas such as construction, energy
conservation, and environmental management for the entire Department, as well as providing
administrative support and oversight for the occupants of the Herbert C. Hoover Building
(HCHB), Commerce’s headquarters. Mail handling and delivery, real and personal property
management, fleet management, printing and publication services, space planning, moving,
library and reference services, and building management are among OAS’s responsibilities.
OAS is currently organized into four units: Office of Administrative Operations (OAO), Office
of Space and Building Management (OSBM), Office of Real Estate Policy and Major Programs
(OREPMP), and the Office of Management Support Services (OMSS).

           Office of Administrative                          Office of Real Estate Policy and
                  Operations                                        Major Programs

Establishes departmental policy and provides        Establishes departmental policy and provides
oversight and strategic planning in the areas of    oversight and strategic planning in relation to
personal property, publications and graphics,       real estate and energy conservation. This
reference and research services, mail               involves coordinating and providing technical
management, and fleet management. This              advice and guidance on implementation of
office also maintains the Department’s              governmentwide programs for the acquisition,
telephone locator database and provides             management, use, and disposal of real
conference support services.                        property, as well as managing Commerce
                                                    programs for energy, water, and environmental
                                                    management.

            Office of Management                        Office of Space and Building Management
              Support Services
                                                    Manages maintenance and building operations
Provides procurement, budget, executive             for HCHB and, for its occupants, provides
services, and personnel liaison support for         space planning and interior design, as well as
OAS and administers the parking, carpool, and       telecommunications, recycling, cleaning, and
transit subsidy programs for all HCHB               landscaping services.
occupants.




                                                   2

U.S. Department of Commerce                                                                Final Report IPE-15131 

Office of Inspector General                                                                        September 2002



                               OBSERVATIONS AND CONCLUSIONS


I.      Bankcard Use Did Not Always Adhere to Policy

The goal of the federal government’s bankcard program is to streamline the purchase of small
items and reduce administrative costs and paperwork. Commerce selected Citibank as the card
issuer for its bankcard program. OAS has 26 bankcard holders, each with dollar limits
stipulating how much they are authorized to spend on a single purchase and over a 30-day period.
As long as bankcard holders stay within their designated spending limits, they do not necessarily
need to obtain approval prior to making a purchase.1 Each bankcard holder has a designated
approving official who is responsible for oversight and monitoring of the cardholder’s
compliance with established regulations and procedures.

To ensure that their use of bankcards complied with applicable regulations and procedures, we
reviewed OAS employees’ bankcard purchases from March 2001 to March 2002. Although we
did not find unallowable purchases, such as personal convenience items, copy paper, or cash
advances, we did find that proper procedures were not always followed.

Documentation and approval processes were overlooked or circumvented

Our review revealed that many cardholders were not maintaining a Purchase Card Ordering Log,
a document required by the Commerce Acquisition Manual. The log can be either hand written
or electronic and cardholders should include all transactions related to their card (purchases,
returns, etc.) and attach all original documentation of sales, delivery, shipping, returns, receipts,
and so on. The log is to be used by approving officials to review purchases and reconcile the
monthly Statement of Account provided by Citibank. In addition, although most OAS
cardholders retained original sales receipts, shipping receipts, and other transaction
documentation to support their purchases, not all cardholders did, despite the fact that
maintaining all documentation is required by the Commerce Acquisition Manual, section
1313.301.

Finally, we found that 8 percent of purchases made by OAS cardholders had not been reviewed
and approved by the cognizant approving officials either before or after the purchase were made.
The Acquisition Manual states that approving officials are responsible for reviewing transactions
to ensure that bankcards are used for their intended purpose and to ensure the validity of the
transactions. When approving officials do not systematically review and approve their
cardholders’ Statement of Accounts, the potential for misuse and abuse of the bankcards
increases.


1
 According to the Commerce Acquisition Manual, certain items require prior approval, such as printing and
duplicating, personnel recruitment advertisements in newspapers, leasing of motor vehicles, and furniture, among
others.
                                                         3

U.S. Department of Commerce                                                  Final Report IPE-15131
Office of Inspector General                                                          September 2002


Cardholders failed to use required sources of supply

In addition to verifying that bankcards are being used for their intended purpose, approving
officials are also required to ensure that all purchases comply with applicable acquisition
guidance. For example, the Commerce Acquisition Manual states that cardholders must adhere
to Federal Acquisition Regulation, Subpart 8.001, which mandates that agencies acquire supplies
and services from designated sources, if they are capable of providing them. Buying supplies
from designated sources ensures that the purchase represents the best value and results in the
lowest overall cost alternative (considering price, special features, administrative costs, and so
forth) to meet the government's needs. The supply sources mandated by federal regulations, in
preferential order, are:

   1.   Federal Prison Industries, Inc. (UNICOR),
   2.   Committee for Purchase From People Who Are Blind or Severely Disabled,
   3.   Wholesale supply sources, such as the General Services Administration,
   4.   Mandatory federal supply schedules,
   5.   Optional-use federal supply schedules, and
   6.   Commercial sources.

Agencies may only use commercial vendors after determining that the first five sources cannot
supply the needed items or cannot complete delivery within a critical timeframe. In the case of
furniture, draperies, and similar items, agencies must also obtain written authorization from
UNICOR prior to purchasing from commercial sources. These written authorizations take
approximately 1 to 7 business days to issue.

We found that OAS cardholders routinely purchased furniture, draperies, and similar items from
commercial vendors, such as Herman Miller, Ethan Allen, and Executive Furniture of
Washington without first obtaining written authorization from UNICOR. In fact, of the $99,461
in furniture purchased by OAS cardholders during the timeframe we reviewed, all had been
purchased from commercial sources and no written authorizations were obtained. Approving
officials we spoke to stated they were not aware of the requirement to purchase through
designated sources or to obtain written authorization to purchase from commercial sources.

Items purchased with a bankcard could not be located

We selected a small sample of items purchased with the bankcards to verify that the items were,
in fact, in use for official purposes. The sample included furniture, Christmas decorations,
refrigerators, and electronic equipment, such as computers and personal digital assistants. We
were able to physically locate all the items with the exception of most of the Christmas
decorations.



                                                4

U.S. Department of Commerce                                                                      Final Report IPE-15131
Office of Inspector General                                                                              September 2002


In late 2001, approximately $2,900 was spent on decorations,2 including tree ornaments and
lights, for the Office of the Secretary’s suite. However, when we compared receipts for the
holiday items purchased to the decorations held in storage, we were only able to locate a small
portion of them. For example, of the 223 ornaments listed on the receipts, we could only account
for 62 ornaments. We checked several locations where decorations have been stored in the past
and just one location contained any decorations. It is our understanding that a similar amount
was spent on decorations in 2000, and those decorations could not be located. Although
Christmas decorations do not meet the criteria for accountable property that must be inventoried
(more than $5,000 in value, or sensitive items, regardless of cost, such as computer equipment,
televisions, etc.), it does not benefit the Department to have to purchase new decorations every
year. In the future, procedures should be put in place to ensure that Christmas decorations or
similar items purchased with government funds do not disappear.



In his response to our draft report, the Chief Financial Officer and Assistant Secretary for
Administration concurred with and implemented our recommendations to ensure that OAS
bankcard usage adhered to policy. Specifically, bankcard training was conducted for all OAS
cardholders and approving officials. Approving officials have been instructed to review,
reconcile, and approve cardholders’ logs and statements of account on a monthly basis. In
addition, effective July 2002, OAS implemented a program to audit the records of bankcard
holders monthly to ensure compliance with regulations and procedures, including the verification
of necessary signatures and all supporting documentation, such as the Purchase Card Ordering
Log. All cardholders and approving officials have also been provided a copy of Federal
Acquisition Regulation, Subpart 8.001 with directions to comply. And, effective July 2002, all
furniture purchases must be coordinated through and approved by the Space Management
Division Chief within the Office of Space and Building Management. The Space Management
Division Chief will seek a waiver for furniture purchases, when appropriate. Finally, the Office
of Space and Building Management will have sole responsibility for accounting for and storing
holiday decorations for the Secretary’s suite. All decorations have been moved to one
consolidated, locked area for storage. The Department’s actions meet the intent of our
recommendations.




2
    This does not include the live trees or wreaths that were also purchased for the Office of the Secretary’s suite.
                                                              5

U.S. Department of Commerce                                                                 Final Report IPE-15131
Office of Inspector General                                                                         September 2002


II.               Awards Program Was Not Well Managed

During the last three years, OAS employees have received approximately $508,476 in
departmental awards. In examining the OAS awards program and awards presented during fiscal
years 1999 through 2001, we found several violations of departmental award guidelines. These
guidelines require offices and bureaus to maintain a structured awards process that includes
documenting support for awards and ensuring that award forms are properly processed by
OHRM and/or NIST. We found, however, that the OAS awards process was disorganized and
had weak internal controls and poor management oversight. We also found that OHRM
management did not adequately oversee and monitor the OAS awards program and did not have
processes in place to detect many of the problems we uncovered.

OAS management failed to monitor awards given to OAS employees

Department Administration Order (DAO) 202-451 requires OAS to properly plan, coordinate,
and administer its incentive awards program.3 The order provides guidelines for two primary
types of awards: Cash-in-Your-Account (CIYA)4 and special act.5 When OAS managers
approve a CIYA award for an employee, a CD-326 form, Recommendation for Recognition, is
prepared and the original is sent to NIST for processing and payment. A copy should be sent
simultaneously to OHRM. OHRM is responsible for processing each CD-326 by entering the
award information into the National Finance Center (NFC) database to ensure that the award
amount is added to the employee’s gross pay and the appropriate taxes are paid.6

For special act awards, OHRM handles both payment and accounting. OAS sends the original
CD-326 form to OHRM for processing. (The awards process is outlined in the figure on page 8).
However, because OAS management did not follow all DAO guidelines and monitor awards
given to employees, there were several key violations of departmental award procedures:

      • 	 For CIYA awards, OAS failed to always provide OHRM with copies of form CD-326.
          Because of this oversight, OHRM was unable to enter all CIYA awards into the NFC
          database. The result was that 80 awards, totaling $24,650 for 50 different OAS
          employees, were not included on the employees’ W-2 forms (earnings statements) and the
          applicable payroll taxes on those awards were not paid.
3
  Incentive Awards Program, Department Administration Order 202-451, August 14, 1990.
4
  Cash-In-Your-Account awards are small monetary awards given quickly (within a few days) to employees for
meaningful, non-recurring contributions and accomplishments.
5
  Special act awards are presented for a non-recurring contribution either within or outside an employee’s job
responsibilities, a scientific achievement, or an act of heroism. An accomplishment must greatly exceed normal
expectations for performance by the employee or constitute a specific act that encompasses a significant portion of
the employee’s performance plan or an element of the plan.
6
  Typically, the Department includes requisite taxes on a CIYA award in the total award amount so that after taxes
are withheld from the award amount, the employee receives the full stated amount of the award (i.e., the employee
receives $500 versus $500 less taxes).
                                                          6

U.S. Department of Commerce                                                            Final Report IPE-15131
Office of Inspector General                                                                    September 2002


    • 	 Nine OAS employees received awards that exceeded departmental thresholds—six OAS
        employees received more than $1,000 in CIYA monies in calendar year 2001(the limit is
        $1,000 annually7), and three employees received CIYA, special act, and performance
        awards totaling more than 10 percent of their base pay in fiscal year 2001 (the limit is 10
        percent annually8). The six employees whose totals exceeded the $1,000 limit received
        between $1,200 and $1,700 each. The three employees awarded more then 10 percent of
        their base pay received 30, 14, and 11 percent of their base salaries. There is a place on
        each CD-326 where the cumulative amount of awards made to an employee is to be
        entered, but OAS managers never filled in this information, nor were the award monies
        provided to employees tracked anywhere else.

    • 	 The justifications for some special act awards were inadequate. In some cases, the CD­
        326 forms lacked any narrative justifying the award. In other cases, a short e-mail was
        attached as justification or narratives were prepared that described an employee’s general
        abilities and not the specific reason for the award. Finally, some of the narratives
        provided to justify a special act award simply did not appear to meet the departmental
        criteria. For example, special act awards are to be given for meaningful non-recurring
        contributions, scientific achievements, or acts of heroism. We found OAS employees
        received special act awards for being courteous and friendly to customers, accomplishing
        assigned duties in a timely and professional manner, having a certain number of years of
        government service, or preparing the Department's holiday décor.




7
 Cash-In-A-Flash Award Program, Personnel Bulletin 451-1, Revision #3, February 12, 1999. 

8
 Fiscal Year (FY) 2001 General Workforce Appraisals, End of Year Schedule, Office of Human Resources Services, 

September 20, 2001.

                                                      7

U.S. Department of Commerce                                                                              Final Report IPE-15131 

Office of Inspector General                                                                                      September 2002



         AWARDS PROCESS FOR SELECTED COMMERCE AGENCIES 


                                                                                             PAY EMPLOYEES
                                                            NIST                              IMMEDIATELY
           Original CD-326     (CIYA Award)                                                       (EFT)
           Recommendation for Recognition

                                                                                                  UPDATE
                                                                                                   CAMS
                                                           CAMS
     Agencies                                            DATABASE
   EDA                                                                                        E-MAIL AGENCY
   ESA/BEA                                                                                       CONTACT
   MBDA
   OIG
   OS
                                                                                               UPDATE CIYA
           Copy of CD-326      (CIYA Award)                                                    SPREADSHEET
           Original CD-326     (Special Act Award)
           Original CD-170     (Suggestion Award)
           Original SF-50      (Performance Award)
                                                           OHRM                              PAY EMPLOYEES
                                                                                              VIA PAYCHECK


                                                                                                  UPDATE
                                                                                                    NFC                      Employee
                                                                                                  SYSTEM                     Earnings
                                                           HRDS
                                                                                                                             and Leave
                                                         DATABASE
                                                                                                                             Statements

 LEGEND
  CAMS – Commerce Administrative Management System	                             MBDA – Minority Business Development Agency
  CIYA – Cash-In-Your-Account                                                   NIST – National Institute of Standards and Technology
  EDA – Economic Development Administration                                     NFC – National Finance Center (Department of Agriculture)
  EFT – Electronic Funds Transfer                                               OHRM – Office of Human Resources Management
  ESA/BEA – Economics & Statistics Administration/Bureau of Economic Analysis   OIG – Office of Inspector General
  HRDS – Human Resources Data System                                            OS -- Office of the Secretary
            Can receive and change data in CAMS Database                                   Can only receive data from HRDS Database


Source: NIST and OHRM Employees

   • 	 In general, OAS managers failed to maintain adequate awards documentation. For fiscal
       years 1999-2001, we found very limited documentation to support CIYA and special act
       awards despite the fact that Department guidelines require such documentation to be
       maintained for 3 years.

All of the problems noted above resulted from a general lack of managerial oversight. The
former OAS director, who was in charge during the period of time our review covered, told us
that he routinely used awards to help motivate and reward staff, but he did not actively oversee
the awards process. He stated that he delegated his role of managing and controlling the awards
program to other OAS employees. However, we found that OAS staff (1) had only a minimal
understanding of departmental award guidelines, (2) were unclear who was responsible for
                                                                8

U.S. Department of Commerce                                                          Final Report IPE-15131
Office of Inspector General                                                                  September 2002


awards, (3) had not established award procedures including an award tracking mechanism, and
(4) had allowed multiple OAS staff to process paperwork for awards. The result was a highly
unstructured awards process with weak internal controls and poor oversight. To prevent such
problems from occurring again in the future, OAS needs to establish a documented awards
process, including designating an awards manager, establishing an awards tracking mechanism,
and training all OAS managers on departmental guidelines for awards.

OHRM management failed to monitor awards given to OAS employees

Departmental guidelines require OHRM to participate in overseeing and reconciling awards to
departmental personnel,9 yet OHRM managers were unaware of OAS’s problems enumerated
above. Our review found that OHRM did not have processes in place to prevent or catch the
many noted award problems, nor did they have a staff member able to dedicate the time
necessary to monitor awards given to OAS and other Office of the Secretary employees. Finally,
because OHRM processes most of the awards received by Office of the Secretary personnel, it is
possible that problems similar to those found in OAS may be present in other Office of the
Secretary offices.

There is no reconciliation process in place between OHRM and NIST to detect the award
problems we uncovered with respect to CIYA awards. NIST is responsible for making the award
payment; OHRM enters the award information into the NFC database to ensure payment of taxes
and accuracy of employees’ earning statements, with regard to award monies received. However,
these two offices are unable to reconcile with one another that they have both processed all the
same CIYA awards. In addition, because OHRM lacks automated controls, it is unable to
prevent employees from receiving award monies in excess of established thresholds. Finally,
OHRM failed to ensure that appropriate documentation was provided to justify awards,
particularly for special act awards, as required.

Because of the critical nature of our finding, that 50 employees’ earnings statements were
incorrect and appropriate taxes had not been paid on 80 awards totaling $24,650, we immediately
notified departmental officials of this problem and issued a flash report. In June 2002, we issued
an interim memorandum to the Department’s Chief Financial Officer and Assistant Secretary for
Administration outlining our findings and specific recommendations to address them.
Specifically, we recommended that the Department immediately ascertain how widespread the
problems are and what corrective actions need to be taken by the Department and any affected
bureaus. We also recommended that the chief financial officer for each Commerce bureau be
asked to (1) review and report back to the Department’s Chief Financial Officer and Assistant
Secretary for Administration on the processing of employee awards and other non-salary


9
 (1) Cash-In-A-Flash Award Program, Personnel Bulletin 451-1, Revision #3, February 12, 1999; (2) Incentive
Awards Program, Department Administration Order 202-451, August 14, 1990; and (3) Performance Management
Handbook, Office of Human Resources Management, Draft Version.
                                                     9

U.S. Department of Commerce                                                Final Report IPE-15131
Office of Inspector General                                                        September 2002


benefits, (2) ensure that all awards made comply with departmental guidelines, including award
thresholds, and (3) identify and take any corrective actions that are needed.

We are pleased to report that some corrective action has already been taken. On hearing of our
finding on the CIYA awards, OHRM proactively decided to require that all CIYA awards be
submitted to OHRM for signature before they are sent to NIST for processing and payment to
employees. This would have prevented some of the past problems. However, we still believed a
formal reconciliation process was needed to be sure both offices processed all CIYA awards and
automated controls should have been instituted to ensure compliance with restrictions on the
timing and amounts of awards. An alternative approach would be to have NFC process and pay
all CIYA awards. We understand that NFC has developed new software that would allow it to
process CIYA awards. The trade-off in having NFC process and pay CIYA awards is that the
awards would be paid bi-weekly in employee paychecks, rather than within days as a direct
deposit into an employee’s bank account when processed by NIST. We commend OHRM for
taking quick action to address this problem.



The Chief Financial Officer and Assistant Secretary for Administration concurred with and
implemented our recommendations to improve OAS’s awards program. Specifically, the
Director of the Office of Management Support Services was designated as OAS’s Incentive
Awards Program Officer. In this capacity, the program officer will track and monitor awards to
ensure they comply with departmental guidelines. Further, effective September 12, 2002,
OHRM revised the CIYA award policy to require that such awards be paid by NFC and that
bureaus establish a tracking system that documents the net dollar value of CIYA awards granted
to an employee, as well as monitors compliance with the annual net dollar limitation of $1,000
per calendar year for each employee. This change negates the need for NIST to work with
OHRM to take appropriate corrective action, as NIST’s Director for Administration and Chief
Financial Officer stated in his response to our report. However, we encourage NIST to work
with OHRM to accurately and completely document the extent of the existing CIYA award
problem to ensure all instances of awards made without the taxes being paid, including those
outside of OAS, are identified and corrected. The Department’s actions meet the intent of our
recommendations.




                                              10

U.S. Department of Commerce                                                                Final Report IPE-15131
Office of Inspector General                                                                        September 2002


III.    Cellular Telephones Were Used For Personal Calls

Seven OAS employees were provided with a cellular telephone to assist in conducting official
government business. In examining their cellular telephone bills from February 2001 to March
2002, we noted calls made by some employees that, based on date, time, and length of call,
appeared to be of a personal nature. In a few cases, monthly costs for employee use of the
telephones were exorbitant, exceeding $1,000 on two occasions, and statements ranging from
$400 to $800 were common.

Because the cellular phones were provided by the government for the purpose of official
business, personal use is not considered an “authorized” use of government property, as outlined
in 5 C.F.R. section 2635.101(b)(9) and section 2635.704. Therefore, we requested that these
employees certify their outgoing calls10 as either official government business or personal use for
any months they exceeded the fixed monthly access charge. Five of the seven employees with
cellular telephones were impacted by this request and were asked to provide certifications. Of
the five employees, three provided signed certifications reporting that they made personal calls
with their government cellular telephones. One employee certified that he had not made any
personal calls, and the last employee has yet to comply with our request. We worked with the
acting OAS director to calculate a fair and equitable amount of reimbursement to the government
for the three employees who acknowledged making personal calls. The reimbursement amounts
were $3.42, $6.00 and $966.73.

According to the former OAS director, who was in charge during the time period in question,
when the employees were issued the cellular telephones, it was verbally made clear that the
phones were to be used only for official government business. This was never, however, put in
writing, nor were employees required to sign a statement affirming that they understood this
policy and would abide by it.

Despite the verbal direction and written guidelines on use of government property, clearly some
employees used the cellular telephones for personal calls. But, it was inadequate management
oversight that allowed this personal use to go undetected for a year, rather than stop it
immediately. When the bills came in, OAS managers did not review them and approved
payment without scrutiny. It was not until early 2002 that managers began to question the
exorbitant charges and cancelled the cellular telephones for the two employees who were most
egregious in their use of the phones. Total cellular charges for the two employees, for the one-
year period, were $4,880 and $3,290, and these bills were paid by the Department. At that point,
procedures were put in place to ensure that two OAS managers review the cellular telephone bills
before authorizing payment. With these new procedures and the two accounts being cancelled,
the excessive personal use of the cellular telephones by OAS employees has stopped.
10
  Only the date, time, and length of incoming calls were annotated on the cellular telephone bills. The originating
phone number was not listed. Therefore, it was impossible to ask employees to certify whether incoming calls were
official government business or personal.
                                                        11

U.S. Department of Commerce                                                 Final Report IPE-15131
Office of Inspector General                                                         September 2002




Finally, we also question whether certain OAS employees truly needed cellular telephones to do
their jobs. For example, two of the most abusive users of their cellular telephones were given
phones simply because they were required to work overtime to assist in the renovation and
redecorating of the Secretary’s suite during the transition period. According to the then OAS
director, the employees were provided cellular phones so he, as their supervisor, could get in
touch with them when they were working in different parts of the building. However, we
contend that pagers would have been a much more cost-effective option: the supervisor could
easily contact employees and, while in the building, employees have numerous telephone lines at
their disposal to call their supervisor, if necessary. Pagers are routinely used to communicate
with other OAS employees, such as plumbers and electricians, whose work takes them to various
locations throughout the building.



In his response to our draft report, the Chief Financial Officer and Assistant Secretary for
Administration concurred with our recommendations to prevent abuse of government-issued
cellular phones. OAS managers are still in the process of reviewing cellular telephone bills to
determine the final reimbursable amount for personal calls made by OAS employees, and they
hope to complete action on this by October 15, 2002. In addition, the Office of Chief
Information Officer is drafting departmental guidelines for telecommunications equipment usage.
 In the interim, all OAS employees with cellular telephones have signed a written
acknowledgement that all calls made with the phones must be official or authorized. Further, the
number of OAS cellular telephones has been reduced from seven to three, and those three have
calling plans in place that will provide the lowest cost for expected usage. Finally, all OAS
cellular telephone bills are being reviewed and certified by the user, as well a first and second
line supervisor. The Chief Financial Officer indicated that any evidence of abuse will be acted
upon immediately. The Department’s actions meet the intent of our recommendations. We
would like to be provided with a copy of the departmental guidelines for telecommunications
equipment usage when they are complete.




                                               12

U.S. Department of Commerce                                                              Final Report IPE-15131
Office of Inspector General                                                                      September 2002


IV.     Controls Over Time and Attendance Were Lacking

With considerable assistance from OHRM staff, we reviewed time and attendance records for
three OAS employees because of concerns about the large amount of overtime each one charged.
Despite several different attempts, we were unable to substantiate that all the overtime in
question had in fact been worked. In addition, our review revealed numerous problems,
including incomplete or missing authorizations to work overtime, a timekeeper who was
improperly made a supervisor, and missing time and attendance documentation.

We were unable to substantiate whether overtime charged was actually worked

Because of the amount of overtime charged (1,152 hours among the three OAS employees during
2001), we tried to confirm whether such overtime was in fact worked. There is no question that
the three OAS employees were called on to escort contractors doing renovations and decorating
of the Office of the Secretary’s executive suite, as part of the transition from the prior
administration to the current one. Much of this work was performed after hours and contractors
had to be accompanied by a government employee. However, the amount of overtime charged
(sometimes up to 80 hours in a two-week pay period) did not always appear plausible.

We first tried to ascertain what type of supervisory oversight was given to the three staff
members and found that there was little oversight. Because most of the work was done after
hours, OAS managers, including the former OAS director, who was the supervisor for the three
employees for much of 2001,11 were not in the office to verify hours worked. The former
director told us that he verified that the contractors’ work had been completed the morning of the
next business day, emphasizing that if it had not been done, he certainly would have heard about
it from the executive staff. We contend, however, that work completed by the contractors was
not necessarily verification of work, particularly all the overtime hours charged, by OAS
employees. In fact, the former director stated that he could think of no instance in which 60 or 80
hours of overtime per pay period would have been required to oversee the contractors’ work. He
also told us that he was unaware that such amounts had been charged, even though in many
cases, he approved the time and attendance reports on which this overtime was charged. Finally,
there was no sign-in/out sheet kept in OAS for the employees working overtime. As a result,
employees were on the honor system—they reported their own overtime hours, and they were
paid without any independent verification of time worked from management.

Despite his questioning the need for 60 to 80 hours of overtime per pay period, the former OAS
director told us we would likely be able to verify that the overtime had been necessary and
worked by reviewing the CD-410 forms, Building Management Division Work Request for the
Herbert C. Hoover Building, prepared for all the renovation and decorating projects in the

11
   Two of the three employees were supervised by the former OAS Director. The third employee, as described later
in this section, was improperly supervised by his timekeeper, who was supervised by the former director.
                                                       13

U.S. Department of Commerce                                                   Final Report IPE-15131
Office of Inspector General                                                           September 2002


executive suite during the transition. We pulled the 51 CD-410 forms that covered this work and
found that only 3 called for any overtime and for a total cost of $1,334.65. At the standard rate of
$35 per hour, that overtime cost equates to approximately 38 hours of the 1,152 overtime hours
charged. However, in discussions with the staff that prepares and processes the CD-410s, it was
discovered that any overtime charged by the three employees in question would not show up on a
CD-410 because the employees billed their time directly to the Secretary, Deputy Secretary, or
Chief of Staff’s appropriation code, rather than through the central billing system. Although this
is permissible, it makes it impossible to track overtime worked on a specific project. As it turns
out, the 38 hours of overtime allotted by the three CD-410s were actually worked by another
OAS employee in the Office of Space and Building Management. As a result, the CD-410s did
not provide verification that the overtime charged by the three employees in question was either
necessary or worked.

Because much of the overtime was worked after normal business hours, we also tried to review
security control logs for entering and leaving the building to verify the arrival and/or departure
times of the employees. At the time the overtime was worked, the employees each had a key-
card allowing them access to the building through the key-card controlled doors of the North and
South courtyards. We were unable to review the key-card access records because the electronic
files for January to September 2001 were unavailable. The system was upgraded in October
2001, but now the data is overridden every 60 days, so by the time we started our review in April
2002, we were unable to obtain any records for October through December 2001.

As a final attempt at confirmation, we reviewed the written sign-in/out logs maintained by the
security guards for building entry before 6:30 a.m. and departure after 6:30 p.m. and 24-hours
each day on weekends. We found the signature of only one employee entering the building on
one day. So, despite our best efforts, we were unable to independently substantiate whether the
overtime charged by the three OAS employees was actually worked.

Authorizations to work overtime were missing or incomplete

The Department’s Premium Pay Handbook requires that overtime be authorized and ordered in
advance and in writing by an individual to whom the authority to approve overtime has been
specifically delegated. Generally form CD-81, Authorization for Paid Overtime and/or Holiday
Work, and for Compensatory Overtime, is used to document this authorization, the maximum
number of overtime hours allowed per pay period, and the total estimated cost of the overtime
being authorized.

In the case of the three OAS employees, authorizations to work overtime were either missing or
incomplete. For one employee, who charged 478.5 hours of overtime in 2001, there were no
authorizations on file. The then-director of OAS, who, according to Department mandate, would
have been the authorizing official on a CD-81, told us the employee was authorized to work
overtime but he did not know why the appropriate forms were never completed. For the other
                                                14

U.S. Department of Commerce                                                   Final Report IPE-15131
Office of Inspector General                                                           September 2002


two employees, who charged 500.5 and 173 hours of overtime, respectively, there were blanket
authorizations on file, but they were not complete: there was no maximum number of hours per
pay period specified, and there was no estimated cost attached to the anticipated overtime. In
addition, the then-chief of staff signed several of the CD-81s, yet she did not have the authority
to approve overtime for the employees. When an employee works overtime for an office or
organization other than his or her own, the authorization for the overtime still rests with the
authorizing official of the employee’s organizational unit (in this case the then OAS director who
signed the other overtime authorizations). Because the appropriate forms were not completed
properly or at all, the employees had no guidance or limits as to the amount of overtime they
could work.

Timekeeper was inappropriately made a supervisor

To ensure checks and balances that help preserve the integrity of the time and attendance process,
the Department’s Time and Attendance Manual states that supervisors, not timekeepers, are
responsible for controlling the time and attendance of employees and reviewing and certifying
the accuracy and completeness of the time and attendance information reported for each
employee under his or her supervision. In the case of one of the three OAS employees, his
supervisor and timekeeper were the same person. A further problem was that the timekeeper was
never officially made a supervisor. The title “supervisor” was given to the timekeeper by the
then OAS Director, but he never modified the employee’s position description or performance
plan to reflect the change in duties, nor did the employee receive any sort of supervisory training.
A final problem was that the timekeeper/supervisor was also one of the three employees who
worked the overtime in question. While we can not verify what actually happened, there
certainly was an opportunity for abuse that would not have existed had the appropriate
managerial oversight been in place.

Time and attendance documentation was missing

The National Archives and Records Administration’s General Records Schedule 2 and the
Department’s Time and Attendance Manual require time and attendance reports to be maintained
for 6 years. In addition, the Department’s Handbook on Hours of Duty and Leave Administration
stipulates that if an SF-71 form, Request for Leave or Approved Absence, is required as a
standard operating procedure, which it is in OAS, then the standard must be uniformly applied.
In the case of the three OAS employees whose time and attendance records we reviewed, we
found that one time and attendance report was completely missing for one employee and that SF­
71s were inconsistently and infrequently used for two of the employees. Timekeeping and the
use of SF-71s improved considerably late in 2001, when one of the three employees was assigned
to a different supervisor and processed by a different timekeeper and another was assigned to a
different supervisor. A cursory review of time and attendance records for other OAS employees
showed that necessary documentation, including SF-71s, was contained in the files.

                                                15

U.S. Department of Commerce                                                Final Report IPE-15131 

Office of Inspector General                                                        September 2002





According to the Chief Financial Officer and Assistant Secretary for Administration’s response
to our draft report, OAS timekeepers have been instructed to attach all supporting documentation
to the Time and Attendance certification, and managers must verify that the documentation is
accurate and complete. In addition, OAS managers and employees have been reminded that
overtime must be requested and approved on a CD-81 form before it is worked, and leave
requests must be made on an SF-71 form. Further, quarterly audits of time and attendance
records will be performed by the Office of Management Support Services and reviewed by each
OAS office director. Finally, OAS managers will ensure that no one serves as both the
timekeeper and supervisor for any employee in the future. The Department’s actions meet the
intent of our recommendations.




                                               16

U.S. Department of Commerce                                                    Final Report IPE-15131
Office of Inspector General                                                            September 2002


V.     Two Employees Abused Their Travel Card Privileges

Late in our inspection, the acting OAS Director alerted us to problems with two employees
abusing their travel cards. We determined that the two OAS employees were using their
government-issued travel cards for personal use and were not prompt in making payment to
Citibank, the contractor that issues the government travel cards. According to the Department of
Commerce Travel Handbook, the use of the travel card is limited to expenses incurred incident to
official government travel; use of the card in the vicinity of the official duty station or residence
is strictly forbidden unless its use is in connection with officially ordered travel. Further,
employees are personally liable for all charges incurred and full payment must be made to
Citibank no later than 25 calendar days from the closing date on the statement in which the
charges appeared. Both employees in question signed a certification, before being issued a card,
acknowledging their responsibilities under the travel card program, including the need to
promptly pay for any charges made to the card and that the cards were to be used for official
government travel only.

In reviewing the Citibank statements for March 2001 through May 2002, we determined the
extent of personal use of the travel cards. In the case of one employee, approximately $6,900 in
cash advances were taken out over a period of 11 months. Nearly all the cash advances were
obtained at automated teller machines in the vicinity of the employee’s official duty station, the
main Commerce building in Washington, D.C., during a time when the employee was not
scheduled for official government travel. The employee ultimately repaid Citibank for the cash
advances. However, the payments were not always timely because 6 of the employee’s 15 checks
payable to Citibank were returned for insufficient funds. In the case of the second employee,
over a 4-month period in 2001, approximately $3,350 in charges were made, of which
approximately $1,250 was for personal use while on annual leave. All charges on the account
went unpaid for more than 6 months, during which time $290 in late fees accrued. After the
account was closed and sent to a collection agency, the employee made a payment of $3,640 to
settle the account.

In the case of both employees, it was a number of months before the problems with personal use
of the travel cards were discovered. Staff in the Department’s Travel Management Office, who
oversee the travel card program for all Office of the Secretary units, stated that the problem
should have been caught sooner and that they need to be more diligent in reviewing the Citibank
statements every month for signs of improper use. When the improper use was discovered,
however, both cards were cancelled and disciplinary action, in the form of a suspension, was
initiated against the employees. One employee has served a 5-day suspension and the other was
expected to do so by the end of August 2002.




                                                 17

U.S. Department of Commerce                                                  Final Report IPE-15131 

Office of Inspector General                                                          September 2002





The Chief Financial Officer and Assistant Secretary for Administration’s response to our draft
report stated that, in the past, only staff in the Office of Executive Budgeting and Assistance
Management (OEBAM) received reports from Citibank on travel card activity for Office of the
Secretary staff. OEBAM has been working with Citibank to provide reports directly to office
directors to allow them to review cardholder charges to ensure they are in connection with
official travel. Office directors should start receiving these reports by December 1, 2002.
Finally, OAS has identified and cancelled travel cards for those employees who are less likely to
travel and reduced the credit limit for the remaining cardholders to $1. This limit will only be
increased when official travel is authorized and reduced back to $1 at the conclusion of the
travel. The Department’s actions meet the intent of our recommendation.




                                               18

U.S. Department of Commerce                                                 Final Report IPE-15131
Office of Inspector General                                                         September 2002


VI.        Commerce’s Energy and Environmental Programs Need Attention

The Department’s Energy Management Program promotes energy conservation and helps reduce
the cost of government by assisting bureaus with reducing energy and water use, managing utility
costs, and promoting renewable energy technologies. The program assists and oversees the
bureaus’ efforts to comply with applicable laws and regulations, promote good business
practices, and evaluate energy conservation opportunities. Commerce’s Environmental
Management Program assists the bureaus in ensuring compliance with such legislation as the
Clean Air Act, the Clean Water Act, the National Environmental Policy Act, and the
Comprehensive Environmental Response, Compensation, and Liability Act, as well as providing
expertise and support in the four pillars of environmental management: prevention, compliance,
conservation, and restoration. We found that both the energy and environmental programs need
attention and staffing to ensure that the Department is in compliance with applicable laws and
regulations.

Newly hired energy manager has daunting responsibility

DAO 217-16 lays out the policies and procedures for implementing a federal energy management
program for Commerce to ensure that the Department that is in compliance with all applicable
laws and Executive Orders.12 After the DAO’s issuance, Executive Order 13123, dated June
1999, was issued and it directs agencies to use more cost-effective renewable energy
technologies and develop implementation plans to reduce overall federal energy consumption.
Between the laws and regulations covered by the DAO and the new Executive Order, there is a
wide range of guidelines pertaining to the conservation and efficient use of energy and water and
the use of renewable energy sources that the Department must comply with. Yet, Commerce’s
Strategic Implementation Plan for Energy Management, issued in January 2002, contains 70
action items that have not been completed.

The Energy Management Officer is responsible for coordinating the development of the
Department's policy and implementation of a federal energy management program. While some
work on the energy program was done by another staff person in the last year, the Department
has done very little in this area since August 2001, when the previous incumbent vacated the
position. During our review the position was filled and the new energy manager began work in
late July 2002. This new manager must immediately begin to address the 70 action items
contained in the Strategic Implementation Plan for Energy Management. It will be important that
the energy manager receive management support and adequate resources to complete the action
items at hand.




12
     DAO 217-16, “Federal Energy Management”, effective May 9, 1994.
                                                      19

U.S. Department of Commerce                                                            Final Report IPE-15131
Office of Inspector General                                                                    September 2002


Environmental manager position remains vacant

The requirement for an environmental program at the departmental level is set forth in DAO 216­
17, which lays out how Commerce will comply with Executive Order 12088 “Federal
Compliance With Pollution Control Standards.”13 Under the DAO, the Chief Financial Officer
and Assistant Secretary of Administration shall “establish policy and provide oversight and
guidance to the Department and its operating units to ensure compliance with environmental
laws and regulations.” The environmental compliance and management program is to include
coordinating reviews and surveys requiring Department-wide response, developing an inventory
of the Department’s sites that store regulated materials and/or hazardous waste, establishing and
chairing an intra-agency task force on environmental compliance, performing environmental
audits, and providing information, guidance, and training to bureaus on environmental
regulations and compliance. To date, much of what is required in an environmental program has
not been done at Commerce.

This is not the first time we have found problems with the state of the Department’s
environmental program. In March 2000, we reported that during our inspection of an October
1999 fire and PCB accident, several Commerce officials and employees expressed concern that,
at the Department level, there were no staff knowledgeable about environmental regulations and
compliance.14 As a result, Commerce had to rely solely on the General Services Administration
for advice and guidance during and after the fire and PCB accident. In our report, we
recommended that the Department perform an assessment to determine what type of
environmental program is needed at the departmental level, to ensure compliance with all
applicable statutory requirements, executive orders, and departmental orders, as well as provide
adequate protection for the Department and its employees.

The Department, albeit separately from the assessment that we recommended, agreed that it did
need an environmental manager on staff and hired one in January 2001. However, during our
current review, in May 2002, the environmental manager left the Department for a promotion
opportunity at another agency. Before leaving, she indicated to us that she had grave concerns
about the state of the Department’s compliance with applicable environmental statutes involving
hazardous waste management, lead-based paint, asbestos, and underground storage tanks. She
also hoped that a new manager would be hired quickly to finish the Department’s Environmental
Management Manual. She had started it but was able to complete only 2 of the 10 chapters
needed. To date, the environmental manager position has not been advertised or filled.



13
     DAO 216-17, “Compliance With Environmental Pollution Standards,” effective December 29, 1988.
14
  U.S. Department of Commerce Office of Inspector General, March 2000. Office of the Secretary: There Are
Lessons to be Learned from the October 1999 Fire and PCB Accident in the Herbert C. Hoover Building, IPE­
12453.
                                                       20

U.S. Department of Commerce                                              Final Report IPE-15131 

Office of Inspector General                                                      September 2002





In his response to our draft report, the Chief Financial Officer and Assistant Secretary for
Administration stated that the new energy manager has been tasked with assisting the Commerce
bureaus in addressing the objectives outlined in the Strategic Implementation Plan for Energy
Management. A two-day workshop has been scheduled for November 2002 to facilitate this. In
addition, the environmental manager position was advertised and closed August 23, 2002. A
final selection is slated to be made by mid-October 2002. The Department’s actions meet the
intent of our recommendations.




                                             21

U.S. Department of Commerce                                                  Final Report IPE-15131
Office of Inspector General                                                          September 2002


VII.   OAS Reorganization Options Need Attention

Many of the problems we found in OAS, as described above, can be attributed to poor
management oversight and a lack of internal controls. Recognizing that some of these problems
might be addressed by a reorganization of the office, in April 2002 the acting OAS director
proposed a new organizational structure. In several meetings with the acting director and other
OAS staff, we discussed the proposed structure and the reasoning behind it, including the
challenge of putting existing staff into positions where both their grade level and skills matched
the job. However, in reviewing the proposed organizational structure, and understanding the
responsibilities that OAS is expected to fulfill, we had concerns that the proposed reorganization
plan could lead to additional managerial problems. For example, the proposed new structure has
six GS-14 and GS-15 division directors reporting directly to the director and deputy director. We
were concerned that with so many divisions, the time and attention of the director and deputy
director may be stretched thin. This could lead to some of the same problems of inadequate
managerial oversight that caused many of the problems cited in our review.

We believe that OAS can certainly benefit from a reorganization that will make managers more
accountable and realign certain functions. For example, under the reorganization plan noted
above, the Special Services Division, which regularly interacts with the Office of Space and
Building Management, would become a unit of that office. The Special Services Division
coordinates scheduling of conference training rooms, the auditorium, and the main lobby of the
HCHB for Department staff and Department-sponsored external groups and provides audio
equipment for many of the departmental functions. We agree with this realignment. However,
any new organizational structure must also ensure supervisory accountability and allow for an
appropriate span of control. Recently, we discussed other possible options to consider with the
acting OAS director, including one that would have three division directors reporting directly to
the OAS director and deputy director.



The Chief Financial Officer and Assistant Secretary for Administration disagreed with a
recommendation in our draft report that called for development of a new OAS organizational
structure that ensures supervisory accountability, allows for an appropriate span of control, and
realigns needed functions. He believes that the OAS Director and Deputy Director would not be
overburdened by managing six divisions. He indicated that a new OAO division director would
be hired and that a new OAS Deputy Director had been selected to assist the Acting OAS
Director with oversight responsibilities. We were satisfied with this alternative solution and
dropped our recommendation that a new OAS organizational structure be developed.




                                                22

U.S. Department of Commerce                                                  Final Report IPE-15131
Office of Inspector General                                                          September 2002


RECOMMENDATIONS

In our draft report, we recommended that the Chief Financial Officer and Assistant Secretary for
Administration direct the appropriate officials to take the following corrective actions to remedy
the problems identified in our report. We are pleased to recognize that management has taken
corrective action on all recommendations except the recommendations concerning
reimbursement for personal use of cellular telephones and the hiring of an environmental
manager. For these two recommendations that remain open, corrective action is underway and
should be completed by mid-October 2002.

Bank Cards

   1. 	 Require that OAS cardholders keep a Purchase Card Ordering Log that includes all
        transactions related to their card and retain all original documentation (see page 3).
   2. 	 Instruct approving officials to review the Purchase Card Ordering Log and Statement of
        Account from Citibank and reconcile and approve all purchases made by cardholders
        under their supervision on a monthly basis (see page 3).
   3. 	 Direct all approving officials to ensure that cardholders adhere to the requirements of
        Federal Acquisition Regulation Subpart 8.001 and acquire supplies and services from the
        required sources of supply. Approving officials also need to ensure that written
        authorization is obtained from UNICOR to purchase items from a commercial source for
        which UNICOR is the mandatory source (see page 4).
   4. 	 Implement procedures to ensure that the Christmas decorations for the Office of the
        Secretary suite are accounted for and safeguarded each year (see page 4).

Awards

   1. 	 Establish a documented awards process for OAS including designating an awards
        manager, establishing an awards tracking mechanism, and training all OAS managers on
        departmental guidelines for awards (see page 6).
   2. 	 Institute an ongoing reconciliation process between OHRM and NIST on CIYA awards to
        prevent such awards from being paid without corresponding adjustments to the
        employees’ earnings statements and appropriate taxes being paid (see page 9).
   3. 	 Develop automated controls to ensure that all awards made comply with departmental
        guidelines, including departmental thresholds (see page 9).

Cellular Telephone Usage

   1. 	 Obtain payment from any OAS employees who have not yet reimbursed the government
        for the cost of personal calls made on government-issued cellular telephones (see page
        11).
   2. 	 Develop written policies for government-issued cellular telephones that clearly state what
                                                23

U.S. Department of Commerce                                                   Final Report IPE-15131 

Office of Inspector General                                                           September 2002



        usage is appropriate and allowable (see page 11).
   3. 	 Only provide a cellular telephone to staff members who absolutely need one to perform
        their job. For those employees that need a cellular telephone, tailor the calling plan based
        on expected usage to minimize monthly cost (see page 11).
   4. 	 Instruct OAS managers to monitor future cellular telephone bills for compliance with the
        OAS policy and immediately act upon any evidence of abuse (see page 11).

Overtime and Time and Attendance

   1. 	 Better manage the time and attendance process to ensure that timekeepers are maintaining
        all documentation for the required time period (6 years) and that overtime authorizations
        (CD-81s) and leave slips (SF-71s) are completed by all OAS employees and approved by
        the proper authorizing official (see page 14 and 15).
   2. 	 Ensure no one serves as both timekeeper and supervisor for an employee, thus 

        circumventing internal controls (see page 15). 


Travel Cards

   1. 	 Regularly monitor travel card statements from Citibank and immediately suspend travel
        cards of any employee who either does not promptly pay her or his travel card bills or
        who uses the card for personal expenses (see page 17).

Energy and Environmental Programs

   1. 	 Task the new energy manager with immediately addressing the 70 action items contained
        in the Strategic Implementation Plan for Energy Management (see page 19).
   2. 	 Immediately advertise and expedite the hiring of an environmental manager (see page
        20).




                                                24

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              25

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              26

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              27

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              28

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              29

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              30

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              31

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              32

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              33

U.S. Department of Commerce         Final Report IPE-15131 

Office of Inspector General                 September 2002





                              34

